Office of
Inspector General
                    Semiannual Report to the Congress
                             April 1 through
                           September 30, 2012



                                Number 47

                              October 18, 2012




                      FARM CREDIT ADMINISTRATION
Farm Credit Administration                                             Office of Inspector General
                                                                       1501 Farm Credit Drive
                                                                       McLean, Virginia 22102-5090




October 18, 2012


The Honorable Leland A. Strom, Chairman and Chief Executive Officer
The Honorable Kenneth A. Spearman, Board Member
The Honorable Jill Long Thompson, Board Member
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Chairman Strom and FCA Board Members Spearman and Long Thompson:

Enclosed is the semiannual report on the activities of the Farm Credit Administration’s (FCA or
Agency) Office of Inspector General (OIG) for the period April 1 through September 30, 2012. This
is the forty-seventh report since the establishment of the OIG on January 22, 1989.

I am submitting this report in accordance with the Inspector General Act of 1978, as amended (IG
Act). Section 5(b) of the IG Act requires that the FCA Board send this report to the appropriate
Congressional committees and subcommittees within 30 days after the date of this transmittal,
accompanied by management’s report on the status of audit, inspection, and/or evaluation action
items.

On August 17, 2012, the OIG issued a final report on an inspection of Information Technology (IT)
Equipment Acquisition. The inspection found the overall IT acquisition process was effective in
determining the best and most cost-effective IT equipment for the Agency’s operations.
Nevertheless, we identified areas where improvements could be made to increase transparency,
accountability, and efficiency. Four agreed-upon actions resulted from this inspection. At the end of
this rating period, all agreed-upon actions were closed.

The OIG issued a management advisory report on September 12, 2012, presenting the results from
a Survey of the Farm Credit Administration’s Use of Social Media. Since FCA does not have an
active social media presence, the OIG issued this report to highlight the issues that should be
considered while evaluating the use of social media as an Agency communication tool. Additionally,
we surveyed FCA employees to identify the extent that employees use social media and identified
potential training needs. We also briefed the FCA Board on the results of our social media survey.

The OIG contracted with the Bureau of the Public Debt for Brown & Company CPAs, PLLC, to
perform the audit of FCA’s financial statements for fiscal year 2012. This audit was ongoing at the
end of this reporting period.
Also initiated and ongoing during this period is the OIG’s annual evaluation of the Agency’s
compliance with the Federal Information Security Management Act. This evaluation is conducted by
the OIG’s Senior IT Auditor.

If you have any questions, please call me at 4241 or 4030. I look forward to continuing a positive
relationship between the OIG and the FCA Board, which I view as a partnership striving to
strengthen FCA operations.

Respectfully,



Carl A. Clinefelter
Inspector General

Enclosure
                                                  OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                               APRIL 1 – SEPTEMBER 30, 2012



                           TABLE OF CONTENTS

EXECUTIVE SUMMARY…………………………………………………………….……………… 1

BACKGROUND……………………………………………………………………………………… 2
  FARM CREDIT ADMINISTRATION………………………………………………………………… 2
  FARM CREDIT SYSTEM…………………………………………………………………………… 2

AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED…..………………………….. 3
  IT EQUIPMENT ACQUISITION…………………………………………………………………………… 3

AUDITS, INSPECTIONS, AND EVALUATIONS IN PROGRESS….………..………………..... 3
  FY 2012 INDEPENDENT FINANCIAL STATEMENT AUDIT OF FCA…………………………....... 3
  FY 2012 FEDERAL INFORMATION SECURITY MANAGEMENT ACT EVALUATION……………. 3

STATUS OF UNIMPLEMENTED RECOMMENDATIONS……………………………………… 4

MANAGEMENT ADVISORY REPORT ISSUED…..…………………………………………….. 4
  AGENCY’S USE OF SOCIAL MEDIA…………………………………………………………………….. 4

INVESTIGATIONS…………………………………………………………………………………... 4

LEGISLATION AND REGULATIONS…………………………………………………………….. 5

OTHER ACTIVITIES………………………………………………………………………………... 6
  QUARTERLY SURVEY OF FARM CREDIT SYSTEM INSTITUTIONS……………………………. 6
  STAFF PARTICIPATION IN ACTIVITIES WITHIN THE INSPECTOR GENERAL COMMUNITY….. 6
  STAFF PARTICIPATION IN AGENCY ORGANIZATIONS…………………………………………. 7
  STAFF DEVELOPMENT……………………………………………………………………………. 7

ANNEX……………………………………………………………………………………………....... 7

APPENDICES
  APPENDIX A – INDEX OF REPORTING REQUIREMENTS……………………………………...                         8
  APPENDIX B – AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED………………....               9
  APPENDIX C – REPORTS WITH QUESTIONED COSTS………………………………………..                          10
  APPENDIX D – REPORTS WITH RECOMMENDATIONS THAT FUNDS
                 BE PUT TO BETTER USE…………………………………………………….                             11
  APPENDIX E – PEER REVIEWS CONDUCTED OF THIS OFFICE………………………………                       12
  APPENDIX F – PEER REVIEWS CONDUCTED BY THIS OFFICE………………………….……                      13
  APPENDIX G – FCA ORGANIZATIONAL CHART………………………..………………….……                           14
  APPENDIX H – OFFICE OF INSPECTOR GENERAL ORGANIZATIONAL CHART..………….....             15
  APPENDIX I – GLOSSARY OF TERMS.………..…………………………………………...…….                           16
                                                                OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                             APRIL 1 – SEPTEMBER 30, 2012


EXECUTIVE SUMMARY
    This Semiannual Report to the Congress summarizes the activities and
    accomplishments of the Farm Credit Administration’s (FCA or Agency) Office of
    Inspector General (OIG) for the period April 1 through September 30, 2012. The
    OIG’s efforts were directed toward implementing the OIG’s fiscal year (FY) 2012
    strategic and operational plan and budget; performing audits, inspections, and
    evaluations of FCA programs and operations; conducting investigations, as
    necessary; independently and confidentially surveying Farm Credit System (FCS or
    System) institutions regarding the effectiveness of the Agency’s examination function
    and examiners; and providing objective, independent reporting and counsel to the
    FCA Board on FCA programs and operations.

    During this reporting period, the OIG issued one inspection report. On August 17, a
    final inspection report on Information Technology (IT) Equipment Acquisition was
    issued. There were four agreed-upon actions that resulted and which were closed
    during this reporting period. See page 3 for further information.

    The OIG issued a management advisory report on September 12, 2012, presenting
    the results from a Survey of the Farm Credit Administration’s Use of Social Media.
    We also briefed the FCA Board on the results. See page 4 for further information.

    The OIG contracted with the Bureau of the Public Debt (BPD) for Brown & Company
    CPAs, PLLC (Brown & Co.) to perform the audit of FCA’s financial statements for FY
    2012. This audit was ongoing at the end of this reporting period.

    Also initiated and ongoing during this period was the OIG’s annual evaluation of the
    Agency’s compliance with the Federal Information Security Management Act
    (FISMA). This evaluation is conducted by the OIG’s Senior IT Auditor.

    Additionally, the OIG issued two quarterly reports to the Chief Examiner and FCA
    Board on results of OIG surveys of System institutions regarding the examination
    function and the examiners. These reports were for the quarters ended March 31
    and June 30, 2012.

    During this period, the OIG updated and issued its Strategic and Operating
    Performance Plan and Budgets for FYs 2013-2014 (SOPP). The SOPP is on the
    OIG’s website at http://www.fca.gov/Download/InspectorGeneral/Strategic&PerformancePlans/S&OPP13-14.pdf.
    Included in the SOPP is the OIG’s Audit Plan covering FYs 2013-2014 and beyond.

    The OIG maintains five positions: the Inspector General (IG), a Deputy Inspector
    General (DIG) and Counsel, a Senior Auditor, a Senior IT Auditor, and an
    Administrative Assistant. Appendix G and Appendix H reflect the organizational
    structure of FCA and the OIG, respectively.



                                               1
                                                            OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                         APRIL 1 – SEPTEMBER 30, 2012



BACKGROUND

Farm Credit Administration
          The FCA is an independent Federal agency of the United States government
          responsible for the regulation and examination of FCS institutions chartered under
          the Farm Credit Act of 1971, as amended (Farm Credit Act). The FCA is also a
          “designated Federal entity” within the meaning of the Inspector General Act of 1978,
          as amended (IG Act).

          As a non-appropriated agency, FCA funds its expenses primarily through
          assessments to the institutions it regulates. The Agency’s FY 2012 budget was
          $60,812,899. Assessments by FCA to FCS institutions for FY 2012 were
          $54,100,000 with other sources of funding totaling $6,712,899. The OIG’s FY 2012
          budget was $1,144,346.

          At the end of this reporting period, FCA had 282 employees, about half of which are
          examiners located in five field offices. At the end of the prior semiannual reporting
          period, the Agency had 285 employees.

Farm Credit System
          The FCS is a Government-sponsored enterprise comprised of 4 Farm Credit banks
          and 83 lending associations, as of September 30, 2012, in all 50 states and Puerto
          Rico that primarily make loans to agriculture. The System raises funds by selling
          securities in the national and international money markets through its special
          purpose entity, the Federal Farm Credit Banks Funding Corporation. These
          securities are not guaranteed by the U.S. Government.

          The Federal Agricultural Mortgage Corporation (Farmer Mac), also a part of the
          FCS, is chartered by the Federal government to provide a secondary market for
          agricultural mortgage loans. Farmer Mac is publicly traded and issues its own debt
          securities.

          Additionally, there are four active service corporations organized under the Farm
          Credit Act that provide services to FCS entities and eligible borrowers.




                                              2
                                                            OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                         APRIL 1 – SEPTEMBER 30, 2012



AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED
          The OIG conducts all audits in accordance with Government Auditing Standards
          issued by the Comptroller General of the United States for audits of Federal
          organizations, programs, activities, and functions. Inspections and evaluations are
          conducted in accordance with the Council of the Inspectors General on Integrity and
          Efficiency (CIGIE) Quality Standards for Inspections. Copies of most OIG reports
          are available on the OIG web site at www.fca.gov/home/inspector.html, or by contacting
          the OIG at (703) 883-4030, or by TTY at (703) 883-4359, or by e-mail at
          ig_information@fca.gov.


Information Technology Equipment Acquisition
          The OIG issued the final inspection report on August 17, 2012. The inspection’s
          objective was to assess the Agency’s acquisition process for IT equipment. While
          the inspection found the overall IT acquisition process was effective in determining
          the best and most cost-effective IT equipment for the Agency’s operations, four
          agreed-upon actions resulted. These agreed-upon actions will further strengthen the
          IT acquisition process. All agreed-upon actions were closed during this reporting
          period.


AUDIT, INSPECTION, AND EVALUATIONS IN PROCESS

FY 2012 Independent Financial Statement Audit of FCA
          The Accountability of Tax Dollars Act of 2002 required FCA and certain other
          agencies to submit to Congress and the Office of Management and Budget (OMB)
          an audited financial statement each fiscal year.

          In continuing to assist the Agency in meeting these requirements, the OIG
          contracted with the BPD for Brown & Co. to perform the audit of FCA’s financial
          statements for FY 2012. The audit remained ongoing at the end of this reporting
          period.


FY 2012 Federal Information Security Management Act Evaluation
          The evaluation of the Agency’s compliance with FISMA for FY 2012 is being
          performed by the OIG’s Senior IT Auditor, using guidelines established by FISMA,
          OMB, and the National Institute of Standards and Technology. This evaluation was
          ongoing at September 30, 2012.




                                              3
                                                                 OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                              APRIL 1 – SEPTEMBER 30, 2012




STATUS OF UNIMPLEMENTED RECOMMENDATIONS

          During this reporting period there were four new agreed-upon actions that were
          administrative in nature. All four items were addressed by management and closed
          during this reporting period.


              Audit, Inspection, and Evaluation Agreed-Upon Actions and
                                   Recommendations
                                                                           Final
                                                      Open During
                                                                       Management          Open on
                   Report              Issued         this 6-Month
                                                                      Actions During      10/01/2012
                                                         Period
                                                                        this Period

           IT Equipment Acquisition   8/17/2012            4                 4                 0


                              Total                        4                 4                 0




MANAGEMENT ADVISORY REPORT ISSUED
         OIG Management Advisory Reports are designed to be a quick mechanism to offer
         the Agency head suggestions on ways to strengthen Agency operations.


Agency’s Use of Social Media
         The OIG issued to the Chairman and Board Members on September 12, 2012, a
         Management Advisory Report, Survey of the Farm Credit Administration’s Use of
         Social Media. Since FCA does not have an active social media presence, the OIG
         issued this Management Advisory Report to highlight the issues that should be
         considered while evaluating the use of social media as an Agency communication
         tool. Additionally, we surveyed FCA employees to identify the extent that employees
         use social media and identified potential training needs. We also briefed the FCA
         Board on the results.


INVESTIGATIONS
          A review of allegations of inappropriate conduct and misuse of resources was
          pursued but was unsubstantiated.

          OIG Hotline calls and emails dealing with borrower complaints concerning FCS
          institutions and other FCA issues were referred to the FCA office or other Federal
          agency responsible for reviewing such matters.


                                                  4
                                                        OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                     APRIL 1 – SEPTEMBER 30, 2012




LEGISLATION AND REGULATIONS
       In furtherance of the OIG’s mandate to review existing and proposed legislation and
       regulations, the IG or DIG and Counsel attends joint briefings of the FCA Board on
       regulations at the proposed and final stages. The following were reviewed by the
       DIG and Counsel:

       Legislation

          1)    S. 241, The Non-Federal Whistleblower Protection Act
          2)    S. 300, Purchase and Travel Card Controls
          3)    S. 743, Whistleblower Protection
          4)    S. 1222 / H.R. 2146, Digital Accountability and Transparency Act of 2011 or
                DATA Act
          5)    S. 2105, The Cybersecurity Act of 2012; S. 3342, SECURE IT; S. 3414
          6)    S. 3286 Comprehensive Contingency Contracting Reform Act of 2012
          7)    S. 3481, Stop Wasteful Federal Bonuses and Conferences Act of 2012
          8)    H.R. 1409, Improper Payments Elimination and Recovery Improvement Act
                of 2012
          9)    H.R. 4631, Government Spending Accountability Act of 2012 (conference
                spending)
         10)    H.R. 4263, SECURE IT Act of 2012
         11)    H. R. 4257, Federal Information Security Amendments Act of 2012
          12)   H.R. 6360, Oversight and Accountability in Wartime Contracting Act of 2012

       Final Rules

         13)    Senior Officer Compensation Disclosures and Related Topics
          14)   System Audit Committee
          15)   Operating and Strategic Business Planning
          16)   Investment Management and Related Regulations Governing Interest Rate
                Risk Management

       Proposed Rule
         17)    Unincorporated Business Entities
          18)   Liquidity and Funding


       Notice of Proposed Rulemaking




                                          5
                                                            OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                         APRIL 1 – SEPTEMBER 30, 2012

             19)   System Institutions’ Organization and Investment in Unincorporated
                   Business Entities

           Notice of Revocation of a System of Records
             20)   Revocation of System of Records for Nationwide Mortgage Licensing
                   System and Registry (transferred to Consumer Financial Protection Bureau.

           Bookletter
             21)   Establishment and Implementation of a Shared Asset Identifier

           Informational Memoranda
             22)   Truth in Lending (Regulation Z) Compensation Rules
             23)   Revised Standard Flood Hazard Determination Form
             24)   Association Investments
             25)   Long-Term Standby Purchase Commitments



OTHER ACTIVITIES

Quarterly Survey of Farm Credit System Institutions
           The OIG administers an ongoing survey of FCS institutions regarding the quality and
           consistency of the Agency’s examination function and examiners. The OIG issues a
           quarterly report and, at the end of each FY, a summary report on the surveys’ results
           to the Chief Examiner and the FCA Board.

           During this 6-month period, the OIG sent surveys to the Audit Committee Chairmen
           and Chief Executive Officers of 28 FCS institutions. Quarterly reports for the 3-month
           periods ended March 31 and June 30, 2012, were issued by the OIG to the Chief
           Examiner and the FCA Board.

Staff Participation in Activities within the Inspector General Community
           OIG staff members are encouraged to take part in organizations that contribute to
           the mission of the Inspectors General community, as well as their individual
           professional development. Most staff members are actively involved in one or more
           professional organizations, as well as activities within the CIGIE.

           The IG serves as the Vice Chairperson of CIGIE, is a member of CIGIE’s Executive
           Council, helps chair the monthly meetings of all Inspectors General comprising
           CIGIE, and participates as a member of the CIGIE’s Inspection and Evaluation (I&E)
           Committee.

           The OIG DIG and Counsel meets monthly with counsels to the other Inspectors
           General. Counsel also attends DIG and Directors of Investigations meetings.


                                               6
                                                              OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                           APRIL 1 – SEPTEMBER 30, 2012

          The OIG Senior Auditor and Senior IT Auditor attend Federal Audit Executive
          Committee meetings and conferences. The Senior Auditor participates as a
          member of the I&E Committee’s Roundtable. The Senior IT Auditor is actively
          involved in the IT Subcommittee of the Federal Audit Executive Committee and
          attends local ISACA (formerly known as Information Security and Control
          Association) meetings.

Staff Participation in Agency Organizations
          OIG employees are active on Agency workgroups and task forces, as appropriate.

Staff Development
          OIG employees continually seek ways to improve skills and become knowledgeable
          in the initiatives of the community of Inspectors General. Audit and legal staff must
          meet continuing education requirements. Individual development plans are used to
          identify long and short-term career goals along with specific training and
          developmental needs. These plans are geared to enhance individual skills in the
          performance of official duties and meet the criteria needed to achieve OIG
          performance goals and objectives.

ANNEX

          This annex is provided in accordance with the National Defense Authorization Act for
          FY 2008.

          This referenced statute requires all Inspectors General appointed under the IG Act to
          include an annex to their semiannual reports as follows:

              1) listing all contract audit reports issued during the reporting period containing
                 significant audit findings;

              2) briefly describing the significant audit findings in the report; and

              3) specifying the amounts of costs identified in the report as unsupported,
                 questioned, or disallowed.

          Significant audit findings are defined as unsupported, questioned, or disallowed
          costs in excess of $10,000,000, or other findings that the Inspector General
          determines to be significant. It defines contracts as a contract, an order placed
          under a task or delivery order contract, or a subcontract.

          No contract audit reports meeting these criteria were issued on behalf of the OIG
          during this reporting period.




                                                7
                                                               OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                            APRIL 1 – SEPTEMBER 30, 2012


                                                                                       APPENDIX A



                   INDEX OF REPORTING REQUIREMENTS                                               Page


Section 4(a)(2)        Review of legislation and regulations                                    5-6


Section 5(a)(1)        Significant problems, abuses, and deficiencies                           None


Section 5(a)(2)        Recommendations for corrective action                                      4


Section 5(a)(3)        Prior recommendations not yet implemented                                None


Section 5(a)(4)        Matters referred to prosecutive authorities                              None


Section 5(a)(5)        Information unreasonably refused or not provided                         None


Section 5(a)(6)        List of reports issued                                                     3


Section 5(a)(7)        Summaries of significant reports                                           3


Section 5(a)(8)        Management decisions with questioned costs                                10

                       Management decisions on recommendations that funds be put
Section 5(a)(9)                                                                                  11
                       to better use

Section 5(a)(10)       Prior audit reports unresolved                                           None


Section 5(a)(11)       Significant revised management decisions                                 None

                       Significant management decisions with which the Inspector
Section 5(a)(12)                                                                                None
                       General disagreed

Section 5(a)(13)       Compliance of Agency financial management system                           3


Section 5(a)(14)(15)   Peer reviews conducted of this OIG                                        12


Section 5(a)(16)       Peer reviews conducted by this OIG                                        13

                       FY 2008 National Defense Authorization Act Citation and
Section 845                                                                                       7
                       Requirement




                                                8
                                                          OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                       APRIL 1 – SEPTEMBER 30, 2012


                                                                                  APPENDIX B



                 Audit, Inspection, and Evaluation Reports Issued

                                                                             Recommendations
                             Number of Agreed Upon
        Report                                        Questioned Costs      That Funds Be Put to
                            Actions/Recommendations
                                                                                 Better Use


IT Equipment Acquisition               4                    $0                        $0


                    Total              4                    $0                        $0




                                              9
                                                                    OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                                 APRIL 1 – SEPTEMBER 30, 2012




                                                                                            APPENDIX C



                                Reports with Questioned Costs
                                                                Number                     Dollar Value

                                                                     Recom-        Questioned     Unsupported
                                                          Reports
                                                                    mendations       Costs           Costs

A. For which no management decision has been
   made by the commencement of the reporting                0            0             $0              $0
   period.

B. Which were issued during the reporting
   period.
                                                            0            0             $0              $0

                                   Subtotals (A+B)          0            0             $0              $0

C. For which a management decision was made
   during the reporting period.
                                                            0            0             $0              $0

   (i) dollar value of disallowed costs                     0            0             $0              $0

   (ii) dollar value of costs not disallowed                0            0             $0              $0
D. For which no management decision has been
   made by the end of the reporting period.
                                                            0            0             $0              $0

E. For which no management decision was
   made within six months of issuance.
                                                            0            0             $0              $0




                                                     10
                                                           OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                        APRIL 1 – SEPTEMBER 30, 2012




                                                                                   APPENDIX D




     Reports with Recommendations that Funds be Put to Better Use

                                                                Number of
                                                    Number of
                                                                 Recom-         Dollar Value
                                                     Reports
                                                                mendations

A. For which no management decision has been
   made by the commencement of the reporting           0              0              $0
   period.

B. Which were issued during the reporting period.      0              0              $0

                                  Subtotals (A+B)      0              0              $0

C. For which a management decision was made
   during the reporting period.
                                                       0              0              $0

   (i) dollar value of recommendations that were
       agreed to by management
                                                       0              0              $0

      - based on proposed management action            0              0              $0

      - based on proposed legislative action           0              0              $0

  (ii) dollar value of recommendations that were
       not agreed to by management
                                                       0              0              $0

D. For which no management decision has been
   made by the end of the reporting period.
                                                       0              0              $0

E. For which no management decision was
   made within six months of issuance.
                                                       0              0              $0




                                               11
                                                           OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                        APRIL 1 – SEPTEMBER 30, 2012




                                                                                    APPENDIX E




                       Peer Reviews Conducted of this Office

                                                                    Function          Peer Review
         Peer Review Performed By             Date of Report
                                                                    Reviewed            Rating


U.S. Commodity Futures Trading Commission
                                             February 4, 2011          Audit              Pass
Office of Inspector General



U.S. Securities and Exchange Commission
                                            December 26, 2007      Investigations         Pass
Office of Inspector General




                                             12
                                                       OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                    APRIL 1 – SEPTEMBER 30, 2012


                                                                                APPENDIX F




                      Peer Reviews Conducted by this Office

                                                                Function          Peer Review
              Peer Review Of            Date of Report
                                                                Reviewed            Rating



Consumer Product Safety Commission
                                        May 23, 2011               Audit              Pass
Office of Inspector General




                                       13
                                                                                                     OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                                                                  APRIL 1 – SEPTEMBER 30, 2012




                                                                                                                                      APPENDIX G
                                                   FCA ORGANIZATIONAL CHART

                                                        Farm Credit Administration Board
                                                                                                                        Office of
                                                                          Board                                    Inspector General1
                                                            Leland A. Strom, Chairman
                                                          Kenneth A. Spearman, Member
                                                           Jill Long Thompson, Member                               Carl A. Clinefelter


                      Secretary to the Board

                          Dale L. Aultman                                                                         Office of
                                                                                                              Congressional and
                                                                                                                Public Affairs

                        Equal Employment                                                                      Michael A. Stokke2
                                                              Office of the Chairman
                       and Inclusion Director                        and CEO
                           Thais Burlew                             Leland A. Strom                           Office of Secondary
                                                                                                               Market Oversight3

                        Designated Agency                                                                       Laurie A. Rea
                          Ethics Official

                       Wendy R. Laguarda



                      Special Advisor YBS &
                       Local Food Systems

                          Mark Johansen
                                                                    Office of the Chief
                                                                    Operating Officer

                                                                 William J. Hoffman




       Office of Management                 Office of Examination                            Office of                             Office of
              Services                                                                    Regulatory Policy                     General Counsel4
                                                S. Robert Coleman
         Stephen G. Smith                                                             Gary K. Van Meter                         Charles R. Rawls




1
    The Dodd-Frank Wall Street and Consumer Protection Act, Public Law 111-203, amended the Inspector General Act, 5 U.S.C. App 3,
    changing the meaning of “head of the designated Federal entity.” The effect is that the Inspector General now reports to the FCA Board.
    Prior to the amendment, the FCA Chairman was the “head of the designated Federal entity” under the IG Act and the IG reported to the
    Chairman.
2
    Serves as Executive Assistant to the Chairman.
3
    Reports to the Board for policy and to the CEO for administration.
4
    Maintains a confidential advisory relationship with each of the Board members.




                                                                               14
                                                          OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                       APRIL 1 – SEPTEMBER 30, 2012


                                                                                  APPENDIX H




   Office of Inspector General Organizational Chart



                              Inspector General

                              Carl A. Clinefelter



     Administrative Assistant

         Debra M. Miller




 Deputy Inspector                 Senior Auditor                       Senior Information
General and Counsel                                                    Technology Auditor
                             Veronica G. McCain
 Elizabeth M. Dean                                                       Tammy F. Rapp




                                                                           December 9, 2010
                           Carl A. Clinefelter, Inspector General          Date




                                           15
                                                           OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                                        APRIL 1 – SEPTEMBER 30, 2012


                                                                                     APPENDIX I


                               GLOSSARY OF TERMS


Agency            – Farm Credit Administration
BPD               – Bureau of the Public Debt
Brown & Co.       – Brown & Company CPAs, PLLC
CIGIE             – Council of the Inspectors General on Integrity and Efficiency
DIG               – Deputy Inspector General
Farm Credit Act   – Farm Credit Act of 1971, as amended
Farmer Mac        – Federal Agricultural Mortgage Corporation
FCA               – Farm Credit Administration
FCS               – Farm Credit System
FISMA             – Federal Information Security Management Act
FY                – Fiscal Year
H.R.              – House Resolution
IG                – Inspector General
IG Act            – Inspector General Act of 1978, as amended
I&E               – Inspection and Evaluation
ISACA             – Information Security and Control Association
IT                – Information Technology
OE                – Office of Examination
OIG               – Office of Inspector General
OMB               – Office of Management and Budget
SOPP              – Strategic and Operating Performance Plan
System            – Farm Credit System




                                             16
                                    OIG SEMIANNUAL REPORT TO THE CONGRESS
                                                 APRIL 1 – SEPTEMBER 30, 2012




        R E P O R T
Fraud     |   Waste    |    Abuse    |    Mismanagement




        FARM CREDIT ADMINISTRATION
        OFFICE OF INSPECTOR GENERAL

• Phone: Toll Free (800) 437-7322; (703) 883-4316

• Fax:        (703) 883-4059

• E-mail: fca-ig-hotline@rcn.com

• Mail:       Farm Credit Administration
              Office of Inspector General
              1501 Farm Credit Drive
              McLean, VA 22102-5090




                           17
